FEBRUARY 17, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




  REVIEW OF NASA’S ACQUISITION OF COMMERCIAL
               LAUNCH SERVICES




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-012 (ASSIGNMENT NO. A-09-011-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

COTS         Commercial Orbital Transportation Services
CRS          Commercial Resupply Services
DOD          Department of Defense
EELV         Evolved Expendable Launch Vehicle
ELV          Expendable Launch Vehicle
ESMD         Exploration Systems Mission Directorate
GAO          Government Accountability Office
GLAST        Gamma-ray Large Area Space Telescope
IBEX         Interstellar Boundary Explorer
ICBM         Intercontinental Ballistic Missile
ICESat-II    Ice, Cloud, and Land Elevation Satellite
IDIQ         Indefinite-Delivery, Indefinite-Quantity
ISS          International Space Station
LADEE        Lunar Atmosphere and Dust Environment Explorer
LCROSS       Lunar Crater Observation and Sensing Satellite
LRO          Lunar Reconnaissance Orbiter
LSP          Launch Services Program
NLS          NASA Launch Services
OCO          Orbiting Carbon Observatory
OIG          Office of Inspector General
PPBE         Planning, Programming, Budgeting, and Execution
SMAP         Soil Moisture Active Passive
SMD          Science Mission Directorate
SOMD         Space Operations Mission Directorate
ULA          United Launch Alliance


                                                               REPORT NO. IG-11-012
FEBRUARY 17, 2011




                                                                                           OVERVIEW

              REVIEW OF NASA’S ACQUISITION OF COMMERCIAL
                           LAUNCH SERVICES

                                                                                             The Issue

  Commercial U.S. launch services providers compete domestically and internationally for
  contracts to carry satellites and other payloads into orbit using unmanned, single-use
  vehicles known as expendable launch vehicles (ELVs). However, since the late 1990s the
  global commercial launch market has generally declined following the downturn in the
  telecommunications services industry, which was the primary customer of the
  commercial space industry. Given this trend, U.S. launch services providers struggling to
  remain economically viable have been bolstered by the Commercial Space Act of 1998
  (Public Law 105-303), which requires NASA and other Federal agencies to plan missions
  and procure space transportation services from U.S. commercial providers to the
  maximum extent practicable.

  In particular, the U.S. market for medium-class launch vehicles, which are suited for
  many NASA science missions, has suffered from lack of demand and foreign
  competition. 1 New launch vehicles in this class are currently under development as part
  of NASA’s Commercial Orbital Transportation Services (COTS) Program, and NASA
  hopes to use these vehicles to resupply the International Space Station (ISS) on a
  commercially competitive basis. Although one such vehicle, Space Exploration
  Technologies Corporation’s (SpaceX) Falcon 9, had successful test flights in June 2010
  and December 2010, neither it nor any of the other vehicles currently under development
  are likely to be ready to launch NASA’s science missions until late 2013 or early 2014.
  Consequently, until that time NASA faces limited domestic availability of medium-class
  launch vehicles for its science missions, a situation exacerbated by the Department of
  Defense’s (DOD) decision to stop using the Delta II – the medium-class vehicle that has
  been NASA’s launch vehicle of choice for nearly 60 percent of its science missions over
  the last decade. Moreover, without orders from DOD there is not enough demand for
  medium-class launch vehicles to sustain most domestic launch services providers.

  For the past decade, NASA’s Launch Services Program (LSP) Office has acquired
  commercial launch services using firm-fixed-price indefinite-delivery, indefinite-quantity
  (IDIQ) contracts under an overarching NASA Launch Services (NLS) contract initially
  awarded in June 2000 that expired on June 30, 2010. Pursuant to these contracts,

  1
      Medium-class missions are typically satellite payloads between 1,500 and 3,200 kilograms (3,300 to 7,040
      pounds), respectively, launched to a 675-kilometer (approximately 405 miles) orbit around the Earth.



REPORT NO. IG-11-012
                                                                                                         OVERVIEW



     U.S. service providers integrate, test, and launch NASA and NASA-sponsored payloads
     into orbit. Using these NLS contracts, NASA has launched science missions such as
     Kepler and the Gamma-ray Large Area Space Telescope (GLAST). Kepler is a NASA
     mission designed to survey the Milky Way Galaxy to detect and characterize Earth-size
     and smaller planets. GLAST, now known as Fermi, is a powerful space observatory that
     will explore some of the most extreme environments in the universe.

     The objective of our audit was to evaluate whether NASA’s LSP, through its
     implementation of NLS contracts, acquired ELVs within costs and timeframes established
     by the contracts. We also evaluated whether NASA’s acquisition strategy for post-2010
     ELV procurements as set forth in an August 2009 report to Congress is cost-effective and
     the most advantageous to the Government. Details of the audit’s scope and methodology
     are in Appendix A.

     Results

     We found that NASA’s LSP acquired ELVs from 2008 through 2009 that were within
     costs and timeframes established by the NLS contracts. However, we also found that
     NASA’s published strategy for acquiring medium-class launch vehicles after 2010 may
     not be the most cost-effective or advantageous to the Government because it did not
     include as a possible option use of Minotaur, a launch vehicle that uses a U.S.
     Government-furnished rocket motor from decommissioned intercontinental ballistic
     missiles.

     Our analysis shows that use of the Minotaur for certain NASA science missions offers
     significant savings when compared to the available commercially provided intermediate-
     class launch vehicles cited in NASA’s report to Congress. 2,3 Moreover, it also would be
     less expensive than SpaceX’s Falcon 9, which is still under development and not yet
     certified to carry NASA science missions. For example, if NASA used the Minotaur
     rather than Falcon 9 or the intermediate-class Atlas V for the Soil Moisture Active
     Passive (SMAP) mission scheduled for launch in November 2014, the Agency could save
     between $61 million and $156 million (see Appendix B). 4

     In response to this finding, NASA stated that use of the Minotaur for some of its science
     missions could have a negative impact on the domestic commercial rocket industry
     because it might discourage companies from entering the launch services market.
     However, as discussed above it is unlikely that reliable and competitively priced medium-
     class launch vehicles will be available in time for the SMAP mission. Accordingly, while

     2
         Intermediate-class launch vehicles can carry payloads weighing more than 3,500 kilograms
         (7,700 pounds).
     3
         “Strategy for Small- and Medium-Class Launch Services,” August 2009 (see Appendix C).
     4
         We based the estimated cost savings on the difference between the projected cost of a Minotaur IV, a
         Falcon 9, and an Atlas V ordered in 2012.



ii                                                                                         REPORT NO. IG-11-012
OVERVIEW



  we appreciate the legal and policy reasons for promoting commercial launch providers,
  we believe that NASA should consider using the Minotaur as a launch vehicle for
  appropriate science missions until cost-effective and reliable commercial launch services
  are available.

  Launch Services Provided within Costs and Timeframes under the 2000–2010
  Contract

  Based on our review of 5 out of 21 missions under the NLS contracts, we determined that
  the LSP acquired ELVs that were within established budget and negotiated contract
  costs. 5 Specifically, for the five missions in our sample that launched from June 2008
  through June 2009, we compared the actual launch services costs with total mission costs
  and found that the total launch services costs were approximately 19 percent of total
  mission costs. 6 In addition, we found that the LSP’s negotiated costs averaged 3 percent
  below what had been obligated by NASA. 7

  We also found that the LSP provided launch vehicles within the timeframes established
  by the contract. Specifically, for the five missions in our sample we compared the
  planned launch dates with actual launch dates and found that although all five missions
  experienced delays, these delays were related to technical issues with the project, not the
  acquisition or readiness of the launch vehicles.

  NASA’s Published Acquisition Strategy for Launch Vehicles Did Not Include the
  Use of Minotaur for Medium-Class Launches

  In accordance with Section 621 of the NASA Authorization Act of 2008, NASA
  developed and submitted a report to Congress setting forth its acquisition strategy for
  providing domestic commercial launch services to support small- and medium-class
  missions of NASA’s Exploration Systems, Science, and Space Operations Mission
  Directorates (see Appendix C). 8 The strategy involved extending the ordering period for
  existing NLS contracts from June 2010 through June 2020 to allow current launch
  services providers to offer launch vehicles that were not available at the time the initial
  contract was awarded and new launch services providers an opportunity to compete for

  5
      See Appendix A for details of our sample.
  6
      Includes basic launch services (standard launch vehicle hardware, range coordination, etc.), mission-
      unique services (requirements necessary to customize the basic vehicle to meet spacecraft and mission
      needs), integrated services (launch vehicle and payload processing, range safety, engineering and
      institutional support, and launch pad support), telemetry, and other costs such as pad infrastructure.
  7
      This audit examined the LSP’s implementation of the NLS contract and did not evaluate the
      reasonableness of contract prices or how those contracts were procured. The Boeing Company reached a
      settlement in June 2006 to resolve criminal and civil allegations that the company improperly used
      competitor’s information to procure contracts for launch services from the Air Force and NASA, as well
      as unrelated allegations concerning Boeing’s relationship with an Air Force employee. As part of the
      settlement, Boeing agreed to pay $615 million, $106.7 million of which went to NASA.
  8
      NASA’s “Strategy for Small- and Medium-Class Launch Services,” August 2009.



REPORT NO. IG-11-012                                                                                           iii
                                                                                                  OVERVIEW



     future launch services contracts. NASA also plans to monitor development efforts of
     Orbital Sciences Corporation (Orbital) and SpaceX, the two commercial partners selected
     as part of the Agency’s COTS Program, to develop a new cargo transport capability to
     resupply the ISS after retirement of the Space Shuttle. Although NASA listed the
     Minotaur as a possible option to launch small-class science missions, the acquisition
     strategy laid out in the report to Congress did not discuss the Minotaur as a possible
     launch vehicle for NASA’s medium-class science missions. However, after the Office of
     Inspector General (OIG) provided NASA a draft copy of this report, the Agency informed
     us that “consistent with law and policy” it would consider using the Minotaur for
     medium-class missions.

     NASA’s published acquisition strategy assumes that in the next 4 years commercial
     companies will develop affordable medium-class launch vehicles under the COTS
     Program. Moreover, NASA anticipates that spreading fixed costs over a larger number of
     resupply flights for the ISS will result in competitively priced medium-class launch
     vehicles. Although launch vehicles developed for ISS resupply missions may indeed be
     feasible options for science missions requiring medium-class launch vehicles, none of
     these vehicles has yet been certified and there is a significant risk that delays and
     technical issues will arise during the certification process that will prevent their
     certification in time for the SMAP mission currently scheduled for 2014.

     The competitive award process for a mission’s launch vehicle typically results in a
     selection 30 months before a mission’s scheduled launch date. If commercial companies
     are unable to timely provide vehicles that meet NASA’s medium-class launch
     requirements, the Agency’s plan calls for choosing between two United Launch Alliance
     (ULA) vehicles: the medium-class Delta II and the intermediate-class Atlas V. 9
     However, there are significant issues with each of these options.

     First, the Delta II may not be available for NASA missions after 2011 because the Air
     Force has stopped using the vehicle in favor of larger intermediate-class launch vehicles
     such as the Atlas V that provide greater lift capability. Consequently, many of the
     components for the standard configuration Delta II are no longer being produced.
     According to NASA officials, restarting the Delta II production line to service NASA’s
     needs would be cost prohibitive.

     Second, the remaining unsold Delta IIs in ULA’s inventory are “7920 heavy”
     configuration models that can only be launched from Space Launch Complex 17B at
     Cape Canaveral Air Force Station in Florida. However, in order to reach polar orbit
     NASA launches most of its Earth science missions at the Western Test Range at
     Vandenberg Air Force Base in California. Heavy configuration Delta IIs could not be
     launched from this location without costly modifications to the launch pad infrastructure
     at Vandenberg.
     9
         In December 2006, Boeing and Lockheed Martin Corporation combined their ELV businesses to form
         United Launch Alliance as a joint venture.



iv                                                                                   REPORT NO. IG-11-012
OVERVIEW



  Third, if NASA uses the intermediate-class Atlas V instead of a medium-class launch
  vehicle, the Agency estimates that its costs will increase by an additional $100 million to
  $300 million per launch. 10

  In sum, the loss of the Delta II as a viable launch option means that NASA may be more
  likely to rely on intermediate-class launch vehicles like the Atlas V to meet its medium-
  class launch requirements until Orbital, SpaceX, or another commercial entity produces a
  more cost-effective medium-class launch vehicle. Our analysis of NASA’s future
  medium-class launch manifest and launch vehicle options shows that using Minotaur
  launch vehicles would be significantly less expensive than using either an Atlas V or even
  SpaceX’s yet-to-be certified Falcon 9 and could provide a viable interim solution for
  several of NASA’s medium-class science missions planned from 2010 through 2020. 11,12

  As previously noted, although new medium-class launch vehicles are in development
  from commercial providers, NASA LSP officials anticipate the earliest these vehicles
  could complete the required NASA certification is between late 2013 and early 2014.
  LSP officials told the OIG that a launch provider can be awarded a launch service task
  order before certification of its vehicle. Currently, the Falcon 9 is the only medium-class
  launch vehicle included in the NLS II contract, and the Falcon 9 flew its first two
  successful test flights in June and December 2010. 13 However, if NASA selected the
  Falcon 9 for the SMAP mission prior to certification, the Agency would need to accept a
  significantly higher degree of risk and determine how to address potential cost increases
  and schedule delays that could result if technical issues were identified during the
  certification process. These potential cost increases are not included in the SMAP
  mission budget and if they materialized could affect the funding available for other
  Science Mission Directorate (SMD) missions. Figure 1 shows the various vehicles that
  could potentially be available for medium-class launches.




  10
       NASA estimates included in NASA’s NLS II Contract Limited Procurement Strategy dated April 2009
       are based on 2009 launch vehicle prices with a 10 percent annual escalation.
  11
       NASA’s launch options are launch vehicles currently available for medium-class missions or vehicles that
       could be available in the near future if certified to fly NASA missions. The vehicle options include
       Taurus II, Falcon 9, Delta II Heavy, and Minotaur.
  12
       The NLS II Projected Mission Model is a planning document used to project NASA launch services
       requirements from 2011 through 2020. NLS II refers to an extension of the ordering period under the
       NLS contracts from June 2010 through June 2020.
  13
       The Falcon 9 configurations can meet medium- or intermediate-class launch requirements.



REPORT NO. IG-11-012                                                                                              v
                                                                                                           OVERVIEW




                            Figure 1. Current Launch Vehicles Potentially Available
                                          for Medium-Class Missions




                  Launch Vehicle            Minotaur IV               Falcon 9               Atlas V
                                                                     Medium to
                 Vehicle Class            Small to Medium           Intermediate          Intermediate
                 Projected Cost in
                 2012                        $50 million            $111 million          $206 million
                 Approximate Mass
                 Capability (600
                 kilometer, polar
                 orbit)                    1,100 kilograms        6,500 kilograms       6,800 kilograms


     SMD personnel stated that launch requirements for some of the 13 medium-class
     missions included in the current NLS II Projected Mission Model potentially could be
     met by a Minotaur launch vehicle. We estimate the average cost of using Minotaurs for
     these science missions, currently scheduled for launch from 2012 through 2020, to be
     $63 million per launch as compared with $141 million per launch using a Falcon 9 and
     $264 million per launch for an intermediate-class Atlas V. 14 Accordingly, NASA could
     save an average of $78 million to $200 million per launch by using a Minotaur rather than
     a Falcon 9 or an Atlas V, respectively, for launches occurring through 2020.



     14
          OIG estimates include basic launch services, mission-unique services, integrated services (e.g., launch
          vehicle and payload processing, range safety, engineering and institutional support, and launch pad
          support), and telemetry.



vi                                                                                          REPORT NO. IG-11-012
OVERVIEW



  As mentioned previously, the competitive award process for a mission’s launch vehicle
  generally occurs 30 months before the scheduled launch date. Therefore, a late 2013 or
  early 2014 certification date for a new medium-class launch vehicle may be too late for
  the SMAP mission, which is scheduled to launch in November 2014. LSP officials
  stated that a launch service task order can be awarded prior to certification. However,
  there are inherent schedule and cost risks associated with choosing an uncertified launch
  vehicle. NASA’s other science missions that will require a medium-class launch vehicle
  are scheduled for launch from 2015 through 2020 and therefore could potentially use new
  commercially developed medium-class launch vehicles such as the Falcon 9. However, if
  cost-effective commercial medium-class vehicles are not ready for flight in time for these
  other missions, NASA could save money by using Minotaurs instead of larger, more
  expensive Atlas V intermediate-class launch vehicle.

  Obstacles to Using Minotaur

  As noted above, after reviewing a draft of our audit report NASA officials told us that
  “consistent with law and policy” they will consider using the Minotaur for medium-class
  science missions on a case-by-case basis. They explained that for each mission they will
  first determine whether cost-effective commercial launch services that meet mission
  requirements are available and, depending on the results of that determination, may
  pursue using a Minotaur for a particular mission. They also expressed concern that using
  the Minotaur for multiple missions would threaten the viability of commercial providers
  of small- and medium-class launch services and may increase the number of bid protests
  on contract awards because commercial companies would argue that U.S. law and space
  transportation policy requires NASA to use U.S. commercial vendors to the maximum
  extent practicable.

  However, in January 2009 the NASA Administrator signed a memorandum stating that
  use of a Minotaur launch vehicle for SMD’s Lunar Atmosphere and Dust Environment
  Explorer (LADEE) met the requirements of the Commercial Space Act and National
  Security Presidential Directive-40, “U.S. Space Transportation Policy,” December 21,
  2004. Moreover, NASA successfully defended this decision against a subsequent bid
  protest.

  The LADEE mission is a small, 284-kilogram satellite designed to orbit the Moon
  originally scheduled for a 2010 or 2011 launch. During its planning process, NASA
  evaluated a series of potential launch vehicles, including SpaceX’s Falcon 9 and
  Falcon 1e, and determined that the Minotaur launch vehicle best met NASA’s
  requirements. In October 2009, SpaceX filed a bid protest with the Government
  Accountability Office (GAO) claiming that the contract award to Orbital for the Minotaur
  violated the Commercial Space Act of 1998 because NASA unreasonably concluded that
  no cost-effective commercial launch services were available from U.S. providers. On
  February 1, 2010, GAO denied SpaceX’s protest, stating that NASA reasonably
  concluded that cost-effective commercial alternatives to the use of the Minotaur for the



REPORT NO. IG-11-012                                                                           vii
                                                                                         OVERVIEW



       LADEE mission were not available. The LADEE mission is currently scheduled for
       launch in May 2013.

       Finally, current law allows NASA to use excess intercontinental ballistic missiles under
       certain circumstances. The Commercial Space Act of 1998 requires the NASA
       Administrator to obtain approval from the Secretary of Defense to use a Minotaur as a
       space transportation vehicle and to certify to Congress that the use of the Minotaur would
       result in cost savings to the Federal Government, meet all mission requirements, and be
       consistent with international obligations of the United States. In addition, Title 42,
       United States Code (U.S.C.), Section 14734 (Use of excess intercontinental ballistic
       missiles) provides NASA the option of using space vehicles derived from excess
       intercontinental ballistic missiles, such as the Minotaur.

       Management Action

       We recommend that the Assistant Associate Administrator for Launch Services and the
       Associate Administrator for SMD evaluate whether cost-effective and mission-suitable
       commercial launch vehicles will be reasonably available when required for the SMAP
       mission scheduled for launch in November 2014. As part of this evaluation, they should
       consider whether the Minotaur could meet mission requirements and whether its use
       would result in a cost savings in accordance with the Commercial Space Act of 1998. In
       addition, the Assistant Associate Administrator and the Associate Administrator should
       conduct a similar evaluation for each future medium-class science mission.

       In response to a draft of this report, the Associate Administrators for Science and Space
       Operations concurred with our recommendation and stated that the intent of the
       recommendation reflects NASA’s current process. The Associate Administrators also
       expressed concern with the impact that use of the Minotaur could have on the commercial
       space transportation industry. Nevertheless, they indicated that NASA will consider the
       Minotaur as a launch option for its science missions consistent with law and policy (see
       the Agency’s response in Appendix D). The Associate Administrators also provided
       technical comments to our draft report, which we incorporated into the report as
       appropriate.

       We commend NASA for making clear its commitment to considering economical
       alternatives like the Minotaur for its medium-class launch services requirements,
       especially in the current fiscally constrained environment. We consider NASA’s
       comments to be responsive to our recommendation and the recommendation to be
       resolved. We will close the recommendation upon completion and verification of the
       planned action.




viii                                                                         REPORT NO. IG-11-012
FEBRUARY 17, 2011




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      NASA’s Launch Services Program Provided Launch Vehicles
        within Costs and Timeframes Established by Contract ______ 5
      NASA’s Acquisition Strategy for Medium-Class Launch Vehicles
        Did Not Include the Use of Minotaur Launch Vehicles _______ 8

  APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls ____________________________ 19
      Prior Coverage ______________________________________ 19

  APPENDIX B
      Potential Monetary Benefits ____________________________ 21

  APPENDIX C
      Strategy for Small- and Medium-Class Launch Services ______ 24

  APPENDIX D
      Management Comments ______________________________ 47

  APPENDIX E
      Report Distribution ___________________________________ 49




REPORT NO. IG-11-012
FEBRUARY 17, 2011




                                                                                 INTRODUCTION


Background

  The Commercial Space Act of 1998. To encourage the development of a commercial
  space industry in the United States, Congress enacted Public Law 105-303 (Title 42,
  United States Code, Section 14701), the Commercial Space Act of 1998. Section 201 of
  the Act requires NASA and other Federal agencies to plan missions and procure space
  transportation services from U.S. commercial providers to the maximum extent
  practicable. However, the Act also provides exceptions that allow the Federal
  Government to acquire space transportation services from noncommercial sources, such
  as the Department of Defense (DOD), on a case-by-case basis. Specifically, the Act
  states that the Federal Government is not required to acquire commercial space
  transportation services if:

         on a case-by-case basis, the [NASA] Administrator or, in the case of a national
         security issue, the Secretary of the Air Force, determines that—
         (1) a payload requires the unique capabilities of the Space Shuttle;
         (2) cost effective space transportation services that meet specific mission requirements
         would not be reasonably available from United States commercial providers when
         required;
         (3) the use of space transportation services from United States commercial providers
         poses an unacceptable risk of loss of a unique scientific opportunity;
         (4) the use of space transportation services from United States commercial providers
         is inconsistent with national security objectives;
         (5) the use of space transportation services from United States commercial providers
         is inconsistent with international agreements for international collaborative efforts
         relating to science and technology;
         (6) it is more cost effective to transport a payload in conjunction with a test or
         demonstration of a space transportation vehicle owned by the Federal Government; or
         (7) a payload can make use of the available cargo space on a Space Shuttle mission as
         a secondary payload, and such payload is consistent with the requirements of research,
         development, demonstration, scientific, commercial, and educational programs
         authorized by the Administrator.

  NASA’s Launch Services Program (LSP) acquires launch services for NASA’s
  Exploration Systems Mission Directorate (ESMD) and Science Mission Directorate
  (SMD) as well as for the national security community, the National Oceanic and
  Atmospheric Administration, and DOD. The principal objective of LSP is to provide
  safe, reliable, cost-effective, on-schedule processing, advanced analysis, integration, and




REPORT NO. IG-11-012                                                                                1
                                                                                  INTRODUCTION



    launch services for NASA and NASA-sponsored payloads using expendable launch
    vehicles (ELVs).

    ELVs are designed to launch NASA science, DOD, commercial, and Federal agency
    payloads into space, are only used once, and their components typically are not recovered
    after launch. ELVs generally use two or more rocket stages, which fall back to Earth
    when their engine burns are complete. Whatever an ELV carries above the final
    discarded stage is considered the payload.

    A payload’s weight, orbital destination, and purpose determine what size launch vehicle
    is required. Three classes of ELVs have traditionally been available to NASA: small,
    which can carry payloads weighing between 200 and 800 kilograms; medium, which can
    carry payloads weighing between 1,500 and 3,200 kilograms; and intermediate, which
    can carry payloads weighing more than 3,500 kilograms.

    Depending on the size of the payload, LSP acquires ELV launch services and directs the
    management and operation of NASA-owned launch sites and payload processing
    facilities. LSP-acquired launch vehicles are scheduled by NASA’s Flight Planning
    Board, which is composed of members from each of the NASA Mission Directorates,
    Office of Safety and Mission Assurance, and Office of the Chief Engineer. Through the
    Flight Planning Board process, all space access requirements and priorities are assessed to
    develop Flight Planning Board Manifests that meet the requirements and capabilities of
    the Agency.

    NASA Launch Services Contract. LSP awards multiple NASA Launch Services (NLS)
    contracts to a variety of launch services providers. Once a year, existing and emerging
    domestic launch services providers may submit proposals to compete for launch services
    contracts. NLS contracts included firm-fixed-price indefinite-delivery, indefinite-quantity
    (IDIQ) contracts with negotiated not-to-exceed prices with United Launch Alliance
    (ULA) for Atlas and Delta launch services, Orbital Sciences Corporation (Orbital) for
    Pegasus and Taurus launch services, Space Exploration Technologies Corporation
    (SpaceX) for Falcon launch services, and Lockheed Martin for Athena launch services.

    The ordering period for the NLS contract expired June 2010. In preparation for the award
    of follow-on contracts to the current NLS contracts, LSP decided to continue to use the
    IDIQ task order contract method and extended the ordering period under the existing NLS
    contract from June 2010 through June 2020. 15 Extending the ordering period allows
    current providers to offer launch vehicles currently under contract as well as new launch
    vehicles that were not available at the time of the award of the base contract. 16 The
    extension also gives new providers an opportunity to offer launch vehicles and compete
    to provide future launch services. Launch services for new missions are added through

    15
         This extension is referred to as “NLS II.”
    16
         ULA’s Delta II was not offered under NLS II.



2                                                                          REPORT NO. IG-11-012
INTRODUCTION



     the issuance of solicitations that result in the award of a firm-fixed-price launch service
     task order.

     On September 4, 2009, NASA issued a request for proposals for potential launch services
     for launches scheduled from 2010 through 2020. Contractor proposals were received on
     October 19, 2009, and contract awards were made on September 23 and 24, 2010. The
     mission model in Table 1 below was included in the request for proposal to identify
     potential launch services requirements for the NLS II contract.

                                     Table 1. Projected NLS II NASA Missions

    Launch                           Projected Number of Missions by Launch Year
  Vehicle Class        2011    2012    2013   2014   2015     2016    2017    2018     2019    2020     Total   SMDb
 Small                   0       2       1      1      0        0       0       1        0       0        5      5
 Medium                  0       0       0      1      2        1       2       2        3       2       13      13
 Intermediate            0       0       1      1      1        3       2       2        2       2       14      9
 Total                   0       2       2      3      3        4       4       5        5       4       32      27
 Minotaur-
  possible
  missionsa                                     1      1        1       1                1       1        6      6
 a
   Medium-class missions that, as of summer 2009, SMD personnel stated may fit on a Minotaur launch vehicle.
 b
   Number of SMD missions out of the total number of NASA missions.



     NASA projects that the value of NLS contracts will increase from $5 billion to
     $15 billion under NLS II. NASA’s projection was based on 2009 prices with a 10 percent
     annual escalation to estimate the cumulative maximum contract value of the NLS II
     contract through 2020. Under the previous contract, NASA computed an average of
     $115 million for each medium-class mission from 1999 through 2010. 17 According to
     NASA officials, medium-class launch vehicles are projected to cost approximately
     $200 million per launch under the NLS II contract, a 74 percent increase over 1999-2010
     average launch costs. 18 Although actual contractor cost data was not available, industry
     studies and NASA officials stated that the cost of manufacturing launch vehicles, the
     overall decline in global demand, and the cost of developing and maintaining launch pad
     infrastructure contribute to the projected increase in launch services costs.

     Declining Commercial Market. We found that the limited global demand for
     U.S. commercial launch vehicles and NASA’s projected 13 medium-class launches for
     2010 through 2020 may not provide enough business for U.S. launch providers to remain
     17
          NASA’s projection was included in the NLS II Contract Limited Procurement Strategy, April 28, 2009,
          which calculated the NLS medium-class contract value of $1.38 billion, divided by 12 medium-class
          missions resulted in an average of $115 million per mission.
     18
          NASA’s projection was included in the NLS II Contract Limited Procurement Strategy, April 28, 2009,
          which calculated the NLS II medium-class contract value of $3.00 billion, divided by 15 medium-class
          missions resulted in an average of $200 million per mission.



REPORT NO. IG-11-012                                                                                                   3
                                                                                               INTRODUCTION



    viable. For example, according to the Federal Aviation Administration only 4 of 23
    (17 percent) commercial launches around the world from January through September
    2009 used U.S. launch providers. The other 19 launches (83 percent) obtained services
    from foreign launch providers in Russia and Europe.

    Federal Aviation Administration data and space industry studies show that foreign launch
    providers, some of which receive extensive government support, can offer launch services
    with the same or greater performance at a lower cost than U.S. launch providers. NASA
    and space industry studies indicate that launch vehicles from U.S. providers will remain
    more expensive than foreign launch vehicles as long as the worldwide demand for
    U.S.-manufactured launch vehicles continues to decline and U.S. launch providers are
    required to pay for launch pad infrastructure costs.

    National Security Presidential Directive-40 allows the Secretary of Defense to provide
    funds for fixed costs incurred by launch services providers supplying intermediate-class
    launch vehicles as part of the Evolved Expendable Launch Vehicle (EELV) Program. 19
    Currently, DOD pays the entire launch pad infrastructure cost for EELVs such as the
    Atlas V, vehicles capable of carrying intermediate and larger payloads. However, the
    U.S. Government does not provide the same financial support for small- and medium-
    class launch vehicles. Without Government funding for infrastructure such as launch
    pads, most U.S. vehicles will remain too expensive to compete with similar vehicles
    provided by other nations.

    Program Oversight. The Assistant Associate Administrator for Launch Services, Space
    Operations Mission Directorate (SOMD), is responsible for oversight, program
    requirements, evaluation, and assessment of the LSP. In coordination with the Flight
    Planning Board, the Assistant Associate Administrator approves class of service, launch
    date, launch site, and publication of the monthly Flight Planning Board Manifest. A
    program manager and the LSP Office, located at Kennedy Space Center, assist in the
    execution of the LSP. Kennedy also provides personnel, facilities, and resources in
    support of LSP’s procurements to include safety and mission assurance functions.


Objectives

    The overall objectives of this audit were to evaluate whether NASA’s LSP acquired
    ELVs within costs and timeframes established by the NLS contracts. We also evaluated
    whether the acquisition strategy NASA provided to Congress for post-2010 ELV
    procurements was cost-effective and the most advantageous to the Government. See
    Appendix A for details of the audit’s scope and methodology, our review of internal
    controls, and a list of prior coverage.


    19
         The EELV Program is jointly funded between the Air Force and the commercial space industry.



4                                                                                      REPORT NO. IG-11-012
RESULTS




                         NASA’S LAUNCH SERVICES PROGRAM PROVIDED
                                 LAUNCH VEHICLES WITHIN COSTS AND
                              TIMEFRAMES ESTABLISHED BY CONTRACT

             NASA’s LSP provided ELVs that were within negotiated costs and timeframes for
             launches between 2008 and 2009. Our review of the five NASA missions launched
             from June 2008 through June 2009 with services provided by LSP found that launch
             services costs were approximately 19 percent of total mission costs, which was
             below the 20 percent budgeted by the SMD. 20 In addition, launch vehicles for small-,
             medium-, and intermediate-class missions were available within timeframes
             specified by the contract.


Launch Vehicles Provided within Cost

  To evaluate the costs of ELVs acquired by LSP, we selected 5 of the 21 missions
  scheduled to launch from 2008 through 2012. 21 These five NASA science missions
  launched from June 2008 through June 2009 and used the following launch vehicles and
  providers:
         •   Interstellar Boundary Explorer (IBEX) – Pegasus XL (Orbital),
         •   Orbiting Carbon Observatory (OCO) – Taurus XL (Orbital),
         •   Gamma-ray Large Area Space Telescope (GLAST) and Kepler – Delta II (ULA),
             for two launches, and
         •   Lunar Reconnaissance Orbiter (LRO) and Lunar Crater Observation and Sensing
             Satellite (LCROSS) – Atlas V (ULA).

  To determine whether LSP provided ELVs within negotiated costs for these five
  missions, we compared the total mission costs with launch services costs. We found that
  the total launch services costs for the five missions were 19 percent of total mission costs
  (see Table 2 for details of the five missions’ costs). Total mission costs for the five
  missions ranged from $185 million to $549 million, with launch services costs from



  20
       Includes basic launch services (standard launch vehicle hardware, range coordination, etc.), mission-
       unique services (requirements necessary to customize the basic vehicle to meet spacecraft and mission
       needs), integrated services (launch vehicle and payload processing, range safety, engineering and
       institutional support, and launch pad support), telemetry, and other costs such as pad infrastructure.
  21
       The 21 launches scheduled from 2008 through 2012 included NASA, Air Force, and National Oceanic
       and Atmospheric Administration missions. Of the 9 missions launched from June 2008 through June
       2009, 5 were NASA missions.



REPORT NO. IG-11-012                                                                                            5
                                                                                                             RESULTS



    $39 million for a small-class launch vehicle to $128 million for an intermediate-class
    launch vehicle. 22

                           Table 2. Launch Services Costs and Total Mission Costs

                                                                              Launch
                              Launch                              Mission Services            Launch Services’
                              Vehicle                              Costs       Costs             Portion of
           Mission             Class         Launch Date          (Dollars in millions)        Mission Costs
    GLAST                  Medium            June 11, 2008          $503.4         $ 80.4          16 percent
    IBEX                   Small              Oct. 19, 2008          185.0           39.1          21 percent
    OCO                    Small             Feb. 24, 2009           271.9           52.3          19 percent
    Kepler                 Medium            March 6, 2009           472.5           82.3          17 percent
    LRO/LCROSS             Intermediate      June 18, 2009           549.4         128.4           23 percent
          Average                                                   $396.5         $ 76.5         19 percent


    As shown in the table, three of the five launches we reviewed were below the 20 percent
    of the overall mission costs budgeted by SMD, as was the overall average of all five
    missions. Further, we compared launch service task order costs with the net obligation
    authority in the planning, programming, budgeting, and execution (PPBE) documents for
    the five missions in our sample. 23 We found that the average launch service task order
    costs for all five launches from June 2008 through June 2009 were 3 percent below basic
    launch services and mission-unique costs established by the net obligation authority in the
    planning documents.


Launch Vehicles Provided on Time

    LSP acquired and made available ELVs for small-, medium-, and intermediate-class
    missions within timeframes established by the NLS contracts. Our review of NASA’s
    2009 Major Program Annual Report concerning delayed launches confirmed that the
    delays in the missions were due to technical issues with the projects and not related to the
    acquisition or readiness of the LSP-provided ELVs. Table 3 compares planned launch
    dates with actual launch dates for the five NASA missions that we reviewed.




    22
         Total mission costs consisted of basic launch services plus mission-unique costs, integrated services,
         telemetry, and other costs.
    23
         Launch service task order costs consist of basic launch services and mission-unique costs. Also, net
         obligation authority is the amount that NASA obligated to cover launch service task order costs.



6                                                                                           REPORT NO. IG-11-012
RESULTS



                         Table 3. Initial Launch Dates and Actual Launch Dates

                               Initial           Actual            Delay
             Mission        Launch Date        Launch Date        (Days)           Cause of Delay

        GLAST               Sept. 30, 2007    June 11, 2008        255       project development

        IBEX                June 15, 2008      Oct. 19, 2008       126       project testing

        OCO                 Sept. 30, 2008     Feb. 24, 2009       147       project development

        Kepler              June 30, 2008     March 6, 2009        249       project development

        LRO/LCROSS          Oct. 30, 2008     June 18, 2009        231       project testing
         Average delay                                             202


  NASA’s 2009 Major Program Annual Report stated that project development and testing
  delayed mission launches by an average of 202 days for the five missions we examined.
  For example:

         •    The GLAST Project was rebaselined due to cost overruns and schedule delays
              associated with the development of the avionics system, the Large Area Telescope
              instrument, and the Command and Data Handling subsystem.

         •    The IBEX Project was rebaselined on September 6, 2006, for launch in the third
              quarter of 2008 to accommodate favorable Moon geometry.

         •    The OCO Project experienced difficulties with the subcontractor for its primary
              instrument, which resulted in a 4-month launch delay. 24 As a result, NASA
              decided to finish the instrument work in-house at the Jet Propulsion Laboratory,
              which contributed to increases in cost and schedule delays.

         •    The Kepler Project underwent a major restructuring during fiscal year 2006
              because of cost overruns and contractor workforce problems. The contractor’s
              inefficiencies resulted in increased programmatic costs and schedule delays.

         •    The LRO/LCROSS Project was delayed because of a nutation problem with LRO
              (nutation is an attitude stability problem that could cause spacecraft pointing
              errors or even result in tumbling and loss of spacecraft). Because Delta II’s upper
              stage is spin-stabilized, which could initiate a nutation problem with LRO, the
              launch vehicle was changed from a Delta II to an Atlas V, increasing the LRO
              budget by $15 million.

  24
       The OCO Project was a NASA satellite mission that launched on an Orbital Taurus XL. On February 24,
       2009, the OCO mission was lost in a launch failure when the fairing failed to separate from the Taurus
       launch vehicle during ascent.



REPORT NO. IG-11-012                                                                                            7
                                                                                                           RESULTS




                             NASA’S ACQUISITION STRATEGY FOR MEDIUM-
                               CLASS LAUNCH VEHICLES DID NOT INCLUDE
                                 THE USE OF MINOTAUR LAUNCH VEHICLES

               NASA’s acquisition strategy for medium-class launch services is based on an
               assumption that commercial partners will be able to develop affordable medium-
               class launch vehicles to replace the Agency’s vehicle of choice, the Delta II, which is
               no longer in production. According to NASA officials, contingency plans would
               choose between the five available 7920 heavy configuration Delta IIs remaining in
               ULA’s inventory and the more powerful and expensive Atlas V, an intermediate-
               class launch vehicle, until commercial U.S. launch providers can develop a new
               medium-class launch vehicle. However, heavy configuration Delta IIs can only
               launch from Cape Canaveral Air Force Station, not the location from which NASA
               science missions are typically launched. Therefore, NASA would likely use
               intermediate-class launch vehicles until an affordable commercially provided
               medium-class vehicle is available. NASA officials estimated in the NLS II Contract
               Limited Procurement Strategy Meeting, April 28, 2009, that the cost of an
               intermediate-class launch vehicle like the Atlas V will be approximately
               $300 million as opposed to an estimated $200 million for a medium-class launch
               vehicle like the Delta II.

               We found that in its acquisition strategy and related contingency plans, NASA did
               not identify the Minotaur launch vehicle as a possible option to meet its medium-
               class launch needs during this interim period. DOD uses Minotaur launch vehicles,
               which are derived from the motors of decommissioned U.S. intercontinental ballistic
               missiles (ICBMs), to satisfy some of its small- and medium-class mission
               requirements. Including the Minotaur in NASA’s acquisition strategy for medium-
               class missions could provide NASA a less expensive alternative than an
               intermediate-class vehicle and could be a viable interim solution for some of its
               medium-class science missions scheduled for 2010 through 2020.

               Our analysis shows that launch services costs in 2012, using a Minotaur IV would be
               between $61 million and $156 million less per launch than using Falcon 9 or Atlas V
               intermediate-class launch vehicle. 25 As a result, NASA could realize substantial
               savings by using Minotaur for appropriate medium-class science missions scheduled
               for launch through 2020 if cost-effective commercial alternatives are not available.

               NASA’s reluctance to consider the Minotaur revolves around its concern that use of
               Minotaurs may discourage commercial providers from entering or participating in the

    25
         $61 million to $156 million is the difference between the price of ordering a Falcon 9 or an EELV in
         2012, estimated at $111 million and $206 million, respectively, and the Minotaur price of $50 million.



8                                                                                         REPORT NO. IG-11-012
RESULTS



             launch services market. Most commercial providers enter the market with small-
             class vehicles for which demand is limited. According to NASA officials, if
             potential commercial launch providers perceive a further lack of launch opportunities
             due to the Government’s use of existing Minotaurs in the small- and medium-class
             market, they may be reluctant to bid on launch services contracts in the future. In
             addition, NASA officials said that commercial launch providers would likely protest
             any contract award for a Minotaur launch vehicle on the ground that U.S. law and
             transportation policy requires NASA to use U.S. commercial vendors to acquire
             space transportation services to the maximum extent practicable.


NASA’s Acquisition Strategy

  Section 621 of the NASA Authorization Act of 2008 required NASA to develop a
  strategy for providing domestic commercial launch services in support of small- and
  medium-class missions of NASA’s Exploration Systems, Science, and Space Operations
  Mission Directorates. As set forth in an August 2009 report to Congress (see
  Appendix C), NASA’s strategy for small-class launch services is to seek competition
  through a mix of existing providers under contract and new providers currently working
  to demonstrate that they are able to meet NASA’s mission requirements.

  Strategy for Small-Class Launch Services. In September 2009, NASA extended the
  ordering period under existing NLS contracts from June 2010 through June 2020. The
  extension, referred to as NLS II, gives both current and new providers an opportunity to
  offer launch vehicles through June 2020. According to NASA officials, small-class
  launch vehicles are important because, historically, new commercial launch services
  providers have started with smaller vehicles before moving on to develop larger ones.
  Orbital and SpaceX provide small-class launch vehicles – the Pegasus and Taurus
  (Orbital) and Falcon 1 (SpaceX) – under NLS contracts. Under NLS II contracts, existing
  and new launch services providers that meet minimum contract requirements can submit
  proposals to furnish launch services for NASA and NASA-sponsored payloads.
  However, NASA officials said there may not be enough business in this class of launches
  to sustain more than one or two commercial providers. For example, NASA’s NLS II
  Projected Mission Model identifies only five small-class missions from 2010 through
  2020. NASA estimates that each launch using a small-class launch vehicle will cost
  approximately $100 million under NLS II contracts. 26 Under the previous NLS contracts,
  each launch using a small-class launch vehicle cost approximately $48 million. 27


  26
       NASA’s projection included in NASA’s NLS II Contract Limited Procurement Strategy, April 28, 2009,
       is based on 2009 launch services prices with a 10 percent annual escalation.
  27
       OIG cost projection based on the average cost of four small-class NASA missions scheduled to launch
       from 2008 through 2012. The IBEX mission cost $39.1 million and flew on a Pegasus. The OCO
       mission cost $52.3 million and flew on a Taurus XL. The NuSTAR mission, estimated to cost
       $35.8 million, and the Glory mission costing $64.4 million had not flown as of January 2011.



REPORT NO. IG-11-012                                                                                         9
                                                                                                          RESULTS



     Strategy for Medium-Class Launch Services. NASA’s strategy for medium-class
     launch services is linked to development activities currently underway as part of the
     Agency’s Commercial Orbital Transportation Services (COTS) Program. The COTS
     Program is a partnership between NASA and two commercial partners (Orbital and
     SpaceX) to develop a new cargo transport capability to resupply the International Space
     Station (ISS) after termination of the Space Shuttle Program. In December 2008, the
     Agency awarded both companies Commercial Resupply Services (CRS) fixed-price
     contracts. At the time of award, NASA ordered eight flights valued at about $1.9 billion
     from Orbital and 12 flights valued at about $1.6 billion from SpaceX. NASA anticipates
     that spreading fixed costs over a larger number of resupply flights for the ISS under the
     CRS contracts will result in competitively priced medium-class launch vehicles.

     However, COTS Program management told the OIG that Orbital and SpaceX were not
     currently developing launch vehicles with all of the capabilities typically required by
     NASA science missions. Therefore, launch vehicles developed for ISS resupply missions
     will need additional capabilities before they can fully meet requirements to serve as
     launch vehicles for NASA’s medium-class science missions.

     Moreover, launch vehicles currently under development for ISS resupply missions are
     unlikely to be certified in time for at least the first of NASA’s upcoming medium-class
     science missions. NASA policy requires that new launch vehicles pass a launch vehicle
     certification process to ensure the launch vehicle meets NASA’s risk category
     requirements and that those risks are mitigated. 28 SpaceX’s Falcon 9 is currently the only
     medium-class launch vehicle available on the NLS II contracts and LSP officials said they
     expect it to be certified for science missions between late 2013 and early 2014. LSP and
     SMD officials told us that standard practice is for NASA to competitively award a
     contract for a mission’s launch vehicle 30 months before a mission’s scheduled launch
     date. Therefore, under that timetable NASA should award a launch vehicle contract for
     the Soil Moisture Active Passive (SMAP) mission, which is planned for a November
     2014 launch, in May 2012, two years before the Falcon 9 is expected to be certified.
     Consequently, it appears unlikely the Falcon 9 or any other medium-class launch vehicle
     currently under development will be certified prior to making a decision on a launch
     vehicle for the SMAP mission.

     LSP officials stated that a launch service task order can be awarded prior to certification.
     However, there are inherent schedule and cost risks associated with choosing an
     uncertified launch vehicle. If the Falcon 9 is selected for the SMAP mission prior to
     certification, NASA would need to determine how to address potential cost increases and
     schedule delays that could result from technical issues identified during the certification


     28
          NASA Policy Directive 8610.7D, “Launch Services Risk Mitigation Policy for NASA-Owned and/or
          NASA-Sponsored Payloads/Missions,” January 31, 2008, requires the Agency to certify that new launch
          vehicles meet NASA’s risk category requirements, to include the completion of three successful flights
          and performance parameters. Two of the three successful flights are required to be consecutive.



10                                                                                        REPORT NO. IG-11-012
RESULTS



  process. These potential increases are currently not included in the SMAP mission
  budget and could affect the availability of funds for other science missions.

  NASA had 13 medium-class missions forecast for launch from 2010 through 2020. 29
  ULA’s Delta II is the only medium-class launch vehicle currently available under the
  original NLS contracts and only five Delta IIs remain available for NASA missions.
  Moreover, these remaining Delta IIs are the heavy configuration models, the highest
  performance Delta II. This version of the Delta II can only be launched from Space
  Launch Complex 17B at Cape Canaveral Air Force Station in Florida, which does not
  allow launches to polar orbits. Missions requiring polar orbits (including SMAP and the
  Ice, Cloud, and Land Elevation Satellite [ICESat-II]) must be launched elsewhere, such as
  Vandenberg Air Force Base in California. In addition, NASA officials said they expect
  that in 2012 the total cost of the Delta II heavy launch vehicle will be approximately the
  same as a larger Atlas V intermediate-class launch vehicle.

  NASA uses the Atlas V for its intermediate-class missions. The Atlas V is part of a
  group of EELVs jointly funded between the Air Force and the commercial space industry
  that are capable of carrying intermediate and higher-level payloads. We project the
  average cost of Atlas V intermediate-class launch services under NLS II contracts
  beginning in 2012 will be approximately $206 million per launch compared with the cost
  of approximately $161 million per launch under the previous NLS contracts.

  We assessed the costs of using Atlas V intermediate-class launch vehicles to satisfy
  launch requirements of NASA’s medium-class missions using an interactive mission cost
  analysis tool developed by the OIG (see Appendix A for details of the tool). Our analysis
  found that SMD would need to increase its annual budget by approximately $6 billion
  over 10 years or eliminate 8 of the 34 missions (24 percent) planned for 2010 through
  2020 to satisfy its medium-class launch requirements if it used intermediate-class launch
  vehicles. Based on our analysis, in late August 2009 the SMD revised its Projected
  Mission Model and reduced NASA’s launch manifest for science missions for 2010
  through 2020 from 34 to 27 missions.

  Currently, DOD pays the entire launch infrastructure cost for EELVs. However, NASA
  may be required to pay a share of costs associated with base support and infrastructure for
  EELVs after 2012. National Security Presidential Directive-40, “U.S. Space
  Transportation Policy,” December 21, 2004, requires the Secretary of Defense, the
  Director of Central Intelligence, and the NASA Administrator to evaluate the long-term
  requirements, funding, and management responsibilities for EELVs and infrastructure.
  The Directive states:

             That evaluation shall include recommending a proportionate shift of the existing
             funding responsibility of the Secretary of Defense to reflect any change to the balance

  29
       NASA’s NLS II Projected Mission Model for 2010 through 2020 as of August 31, 2009, identified
       5 small-class, 13 medium-class, and 14 intermediate-class missions.



REPORT NO. IG-11-012                                                                                   11
                                                                                            RESULTS



            between national security and civil missions employing an Evolved Expendable
            Launch Vehicle.

     If the decision is made to have NASA share in the funding for launch services
     infrastructure, we estimate that it could result in an average increase of $100 million for
     each NASA EELV mission (see Appendix B).


Use of Minotaur IV Launch Vehicles Less Costly for NASA’s
  Medium-Class Missions

     NASA’s “Strategy for Small- and Medium-Class Launch Services” lists the Delta II and
     Atlas V launch vehicles as alternatives for providing medium-class launch services until
     commercial partners are able to develop affordable medium-class launch vehicles.
     NASA’s strategy did not include using Minotaur IV launch vehicles to satisfy launch
     requirements for medium-class missions projected for 2010 through 2020. We concluded
     that the Minotaur launch vehicle would be a less expensive alternative for medium-class
     launch services for select NASA science missions from 2012 through 2020 at an average
     cost of approximately $63 million per launch.

     DOD uses Minotaur launch vehicles to satisfy some of its small- and medium-class
     mission launch requirements. Although manufactured in the United States by Orbital,
     Minotaur launch vehicles are not considered commercial ELVs and are less expensive
     because they use Government-furnished solid-fueled rocket motors from decommissioned
     Peacekeeper ICBMs.

     If NASA were to use Minotaurs for its projected science missions during the next
     10 years, launch services costs would average between $78 million and $200 million less
     per launch compared to using a Falcon 9 or an Atlas V intermediate-class launch vehicle.

     Including the Minotaur in NASA’s acquisition strategy for medium-class missions would
     provide NASA with a cost-effective and proven launch option. Table 4 and the following
     paragraphs provide a comparison of Orbital’s Minotaur IV, SpaceX’s Falcon 9, and
     ULA’s Atlas V and Delta II launch vehicles.




12                                                                            REPORT NO. IG-11-012
RESULTS




      Table 4. NASA’s Available Alternatives for Medium-Class Launch Requirements in 2012

                             Minotaur IV              Falcon 9                 Atlas V                  Delta IIa
                                Small to             Medium to
  Class                         medium              Intermediate            Intermediate                Medium
  Performance
  Risk                            Low                 Unknown                    Low                       Low
                             California,
  Pad                      Florida, Alaska,                                  California,
  Infrastructure               Virginia                 Florida               Florida                   Floridab
  Infrastructure                                                            DOD pays                 NASA pays
  Costs (2009)              None, portable            Unknown            $161 million/year         $50 million/year
  Launch
  Schedule                        Open                   N/A                Backlogged                    Open
  Average Cost
  2012-2020                   $63 million           $141 million            $264 million             $200 millionc
  a
    Many Delta II components are no longer in production.
  b
    The five remaining Delta II rockets are the 7920 heavy configurations that can only launch from Florida.
  c
    NASA’s projection based on 2009 launch services prices with a 10 percent annual escalation.



  Minotaur IV. NASA considers the Minotaur IV a small-class launch vehicle. However,
  SMD personnel stated that some of the 13 medium-class missions included in NASA’s
  NLS II Projected Mission Model for 2010 through 2020 could potentially fit on a
  Minotaur IV launch vehicle. In addition, the Minotaur has a significant flight history with
  an excellent success rate. NASA has also assessed Minotaur IV schedule risk and
  considered it low. Lastly, we determined that the cost for launch services in 2012 using
  Minotaur IV launch vehicles would be approximately $50 million per launch.

  Falcon 9. SpaceX’s Falcon 9 is a medium- to intermediate-class launch vehicle that is
  still in development. SpaceX has had two successful flights of the Falcon 9, in June 2010
  and December 2010, and the vehicle is included in NASA’s NLS II contracts. Currently,
  SpaceX does not have a launch facility at Vandenberg and a determination of
  performance risk for the vehicle has not yet been made. The estimated cost in 2012, for a
  Falcon 9 is approximately $111 million per launch.

  Atlas V. ULA’s Atlas V is an intermediate-class launch vehicle and NASA’s
  contingency plan is to use the Atlas V for future medium-class missions if new medium-
  class launch vehicles currently in development are not available in time. The Atlas V can
  meet the technical requirements for mass and trajectory for all 13 projected medium-class
  missions. In addition, NASA officials said the Atlas V’s performance risk is low because
  it is certified to carry high-priority payloads and has a significant flight history with an


REPORT NO. IG-11-012                                                                                                  13
                                                                                           RESULTS



     excellent success rate. We estimated that launch services costs in 2012, using an Atlas V
     launch vehicle will be approximately $206 million per launch under NLS II contracts.

     Delta II. ULA’s Delta II is a medium-class launch vehicle. Delta II was the only
     medium-class launch vehicle available under the original NLS contracts. However, there
     is no Delta II under the NLS II contract and only five Delta IIs remain in ULA’s
     inventory, and all five are the heavy configuration that can only launch from Cape
     Canaveral Air Force Station. Delta II can meet the technical requirements for mass and
     trajectory for some of the 13 projected medium-class missions. In addition, the Delta II
     has been NASA’s launch vehicle of choice for nearly 60 percent of its science missions.
     It is certified to carry high-priority payloads and has a significant flight history with an
     excellent success rate. NASA projected that using medium-class Delta II launch vehicles
     could cost approximately $200 million per launch.

     As noted earlier, Delta IIs are no longer being produced. Accordingly, if NASA wanted
     to continue using the Delta II after the unsold inventory is depleted, ULA would need to
     restart production of the major components of the Delta II launch vehicle, which would
     increase the cost and delay the schedule for medium-class missions. NASA officials
     estimate that the costs of restarting and sustaining production lines and launch pad
     infrastructure for the Delta II would make the total cost for that vehicle approximately the
     same as using the larger Atlas V.


Obstacles to Using Minotaur Launch Vehicles

     U.S. law and space transportation policy require NASA to use U.S. commercial vendors
     to acquire space transportation services to the maximum extent practicable. However,
     Title 42, United States Code (U.S.C.), Section 14734 (Use of excess intercontinental
     ballistic missiles) provides NASA the option of using space vehicles derived from excess
     ICBMs, such as the Minotaur. In accordance with the Commercial Space Act of 1998,
     the NASA Administrator can seek approval from the Secretary of Defense to use a
     Minotaur as a space transportation vehicle. However, the Administrator must certify to
     Congress that the use of the Minotaur would result in cost savings to the Federal
     Government, meet all mission requirements, and be consistent with international
     obligations of the United States.

     In January 2009, the NASA Administrator signed a memorandum stating that the use of a
     Minotaur launch vehicle for the LADEE mission met Commercial Space Act and U.S.
     Space Transportation Policy requirements. This mission required launch services to
     transport the LADEE spacecraft into a circular lunar orbit to analyze the lunar atmosphere
     and to test communications capabilities from lunar orbit. NASA evaluated potential
     launch vehicles for this mission based on four criteria: technical capability, risk,
     schedule, and cost. NASA’s launch vehicle evaluations included the Minotaur V, a
     five-stage launch vehicle consisting of three stages that use Government-furnished



14                                                                           REPORT NO. IG-11-012
RESULTS



  components from decommissioned Peacekeeper ICBMs, and two launch vehicles offered
  by SpaceX – the Falcon 1e and Falcon 9. NASA concluded that the Minotaur V and
  Falcon 9 launch vehicles could meet the LADEE mission’s technical requirements, but
  the Falcon 1e launch vehicle was not capable of achieving the required trans-lunar orbit.

  Although neither the Minotaur V nor the Falcon 9 has a NASA flight history, NASA
  concluded that the Minotaur V had the lowest technical and schedule risk given the
  Government’s experience with the Minotaur V’s design and the scheduled launches of its
  predecessor, the Minotaur IV. NASA concluded that the projected costs for the Falcon 9,
  in light of the anticipated Government oversight required to ensure a successful mission,
  would be approximately twice those for the Minotaur V. Based on these findings, NASA
  concluded that there were no cost-effective commercial launch services available from
  U.S. providers for the LADEE mission.

  In August 2009, the Air Force issued a delivery order to Orbital under its IDIQ contract
  for launch services for the LADEE mission using a Minotaur V. 30 SMD personnel stated
  that Air Force launch services costs for the LADEE mission would be approximately
  $46 million, which is comparable to costs for launch services provided by LSP under the
  NLS contracts.

  In October 2009, SpaceX filed a bid protest with the Government Accountability Office
  (GAO) claiming that the contract award to Orbital for the Minotaur V violated the
  Commercial Space Act of 1998. SpaceX argued that NASA unreasonably concluded that
  no cost-effective commercial launch services were available from U.S. providers. On
  February 1, 2010, GAO denied SpaceX’s protest, stating that NASA reasonably
  concluded that cost-effective commercial alternatives to the use of ICBM assets for
  launch services were not available.


Conclusion

  Under NASA’s published acquisition strategy for launch services, the Agency indicated it
  may use more costly intermediate-class launch vehicles for its medium-class science
  missions planned for 2010 through 2020. Our analysis shows that Minotaur launch
  vehicles could provide NASA a significantly less expensive alternative than these
  intermediate-class vehicles and therefore should be considered. Moreover, the Falcon 9,
  the only medium-class commercial vehicle currently in a position to be certified within
  the next several years, would cost at least twice as much as a Minotaur and therefore
  NASA would need to carefully consider whether its use is “cost effective” as that phrase
  is used in the Commercial Space Act of 1998.


  30
       Minotaur launch vehicles are available through the U.S. Air Force’s Orbital/Suborbital Program 2
       contract. The contract is administered by the U.S. Air Force Space and Missile Systems Center, Space
       Development and Test Wing, located at Kirtland Air Force Base, New Mexico.



REPORT NO. IG-11-012                                                                                          15
                                                                                        RESULTS



Recommendation, Management’s Response, and Evaluation of
  Management’s Response

     Recommendation. The Assistant Associate Administrator for Launch Services and the
     Associate Administrator for SMD should evaluate whether cost-effective and mission-
     suitable commercial launch vehicles would be reasonably available when required for the
     SMAP mission scheduled for launch in November 2014. As part of this evaluation, they
     should consider whether the Minotaur could meet mission requirements and whether its
     use would result in cost savings in accordance with the Commercial Space Act of 1998.
     In addition, the Assistant Associate Administrator and the Associate Administrator
     should conduct a similar evaluation for each future medium-class science mission.

     Management’s Response. The Associate Administrators for Science and Space
     Operations concurred with our recommendation and stated that the intent of the
     recommendation reflects NASA’s current processes. The Associate Administrators also
     expressed concern with Minotaur’s impact on the commercial space transportation
     industry; however, they stated that Minotaur will continue to be considered as a launch
     services option consistent with law and policy.

     Evaluation of Management’s Response. The Associate Administrators’ planned action
     is responsive. The recommendation is resolved and will be closed upon completion and
     verification of the proposed action.




16                                                                        REPORT NO. IG-11-012
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from March 2009 through November 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We interviewed management officials from LSP, the Commercial Crew and Cargo
  Program Office, SMD, SOMD, and ESMD. We discussed areas related to LSP’s future
  acquisition strategy; NLS contract costs, technical performance, risk, and schedule
  requirements; the status of ISS CRS contract efforts; and SMD’s and ESMD’s budget
  estimates and future mission requirements.

  Evaluation of ELVs Provided under the NLS Contract. To evaluate costs and
  timeliness of ELVs provided by NASA’s LSP, we selected 5 out of 21 missions
  scheduled to launch from 2008 through 2012. The five missions we selected for our
  sample were NASA-only missions, with services provided by LSP. We also ensured that
  our sample included all classes of launch vehicles covered under the previous NLS
  contract. Our sample consisted of the following:

      •   two small-class missions,

          o one using a Pegasus XL (Orbital) launch vehicle,

          o one using a Taurus XL (Orbital) launch vehicle;

      •   two medium-class missions using Delta II (ULA) launch vehicles; and

      •   one intermediate-class mission using an Atlas V (ULA) launch vehicle.

  To evaluate whether LSP acquired ELVs that were cost-effective for the five missions,
  we compared the total launch services costs from the May 5, 2009, “Planning,
  Programming, Budgeting, and Execution (PPBE)” data with total mission cost from the
  Major Annual Program Report data in the 2010 NASA Budget.

  We also compared the individual launch service task order costs with the net obligation
  authority for basic launch services and mission-unique costs in the May 2009 PPBE data.



REPORT NO. IG-11-012                                                                          17
                                                                                       APPENDIX A



     To evaluate whether LSP-provided ELVs were timely for the five missions, we reviewed
     and compared NASA’s 2009 Major Annual Program Report’s initial launch dates with
     actual launch dates.

     Evaluation of Post-2010 Strategy. To evaluate whether NASA’s acquisition strategy
     for ELVs after 2010 is cost-effective and the most advantageous to the Government, we
     reviewed the draft and final NASA reports, “Strategy for Small- and Medium-Class
     Launch Services,” dated February and August 2009, respectively (the final report is in
     Appendix C). In addition, we requested that SMD personnel identify medium-class
     missions included in NASA’s NLS II Projected Mission Model for 2010 through 2020
     that could be potentially satisfied with Minotaur IV launch vehicles. We also compared
     NASA’s projected costs for small-, medium-, and intermediate-class launch vehicles
     under the NLS II contract with FY 2009 budget data from SMD and the U.S. Air Force
     for Minotaur IV launch vehicles. See Appendix B for details on the potential monetary
     benefits that we identified.

     To assess the cost of using intermediate-class launch vehicles to satisfy launch
     requirements of NASA’s medium-class missions, we developed an interactive mission
     cost analysis tool that compares mission and launch vehicle cost data with budgets. The
     tool uses NASA contract requirements, annual budgets, project development inflation,
     technological change costs, inflationary schedule change, project size, number of projects,
     average years to develop projects, average launch services costs, and assignment of
     launch vehicles to projects. In addition, the tool computes budget requirements to cover
     future mission costs, formulates cost avoidance based on assignment of launch vehicles,
     predicts impact on the number of future missions, and displays the cumulative budget
     deficit or gain. We used the tool to analyze the NLS II Projected Mission Model, dated
     August 3, 2009, that included 38 (34 SMD) ELV missions. On August 28, 2009, we
     provided SMD and LSP officials our cost analysis tool and shared our results. On
     August 31, 2009, SMD personnel provided us a revised Projected Mission Model that
     reduced NASA’s launch manifest from 38 to 32 (27 SMD) missions for 2010 through
     2020.

     Launch Vehicles under Development. To determine whether commercial launch
     vehicles under development would be available and certified for NASA’s medium-class
     science missions when required, we discussed the issue with LSP and SMD officials. We
     compared Orbital and SpaceX’s COTS development milestones on file in the COTS
     Program Office with the scheduled launches of medium-class science missions included
     in NASA’s mission model for 2010 through 2020. Using COTS milestones, we
     developed a timeline that estimated the launch vehicle selection and certification dates for
     the SMAP mission. We compared SMAP’s estimated launch vehicle selection dates with
     LSP’s estimated launch vehicle certification dates to determine whether developmental
     launch vehicles would be available for the SMAP mission when required.




18                                                                          REPORT NO. IG-11-012
APPENDIX A



  Use of Computer-Processed Data. We assessed the reliability of computer-processed
  data used to perform this audit by comparing contract cost data, PPBE data, and cost data
  in NASA’s Business Warehouse application from LSP, SMD, and ESMD. We also
  analyzed Air Force budget data for FY 1999 through FY 2013, contained in Exhibit R-2,
  “RDT&E [Research, Development, Test, and Evaluation] Budget Item Justification,”
  February 2008, which we obtained from the Defense Technical Information Center in
  May 2009. We compared the Air Force budget data with budget information in NASA’s
  procurement strategy documents. Although we did not test the general or application
  controls of any of these systems, we did compare the data with contract data and
  procurement strategy documents and determined that the data was valid and reliable to
  support our objectives and conclusions.


Review of Internal Controls

  We reviewed and evaluated the internal controls associated with documentation of launch
  services requirements, the achievement of milestones, and cost reviews. We found no
  internal control deficiencies in any of the three areas.


Prior Coverage

  During the last 5 years, GAO has issued seven reports related to the subject of this report.
  These reports can be accessed at http://www.gao.gov.

  Government Accountability Office

  “NASA: Medium Launch Transition Strategy Leverages Ongoing Investments but Is Not
  Without Risk” (GAO-11-107, November 22, 2010)

  “NASA: Commercial Partners Are Making Progress, but Face Aggressive Schedules to
  Demonstrate Critical Space Station Cargo Transport Capabilities” (GAO-09-618,
  June 16, 2009)

  “NASA: Assessments of Selected Large-Scale Projects” (GAO-09-306SP, March 2, 2009)

  “Space Acquisitions: Uncertainties in the Evolved Expendable Launch Vehicle Program
  Pose Management and Oversight Challenges” (GAO-08-1039, September 26, 2008)

  “Space Acquisitions: Actions Needed to Expand and Sustain Use of Best Practices”
  (GAO-07-730T, April 19, 2007)

  “Space Acquisitions: DOD Needs to Take More Action to Address Unrealistic Initial
  Cost Estimates of Space Systems” (GAO-07-96, November 17, 2006)



REPORT NO. IG-11-012                                                                             19
                                                                                APPENDIX A



     Government Accountability Office (continued)

     “Space Acquisitions: Improvements Needed in Space Systems Acquisitions and Keys to
     Achieving Them” (GAO-06-626T, April 6, 2006)




20                                                                    REPORT NO. IG-11-012
APPENDIX B




                                                                         POTENTIAL MONETARY
                                                                                    BENEFITS


  The use of Minotaur IV launch vehicles, derived from the rocket motors of
  decommissioned ICBMs, could be a cost-effective interim solution for some of the 13
  medium-class science missions planned in NASA’s NLS II Projected Mission Model
  through 2020. We learned, through discussions with SOMD officials, that the Air Force
  had 35 to 38 Minotaurs in its inventory as of November 2010. In the summer of 2009,
  SMD personnel stated that some medium-class missions included in the NLS II mission
  model may fit on a Minotaur IV launch vehicle. By using a Minotaur for SMAP instead
  of a Falcon 9 or an Atlas V, NASA could potentially save between $61 million and
  $156 million per launch if NASA determines that a Minotaur IV meets mission,
  technical, risk, and schedule requirements.


Atlas V to Satisfy NASA’s Medium-Class Launch Requirements

  Based on our evaluation of LSP’s presentation, “NLS II Contract Limited Procurement
  Strategy Meeting (PSM),” April 28, 2009, NASA determined the maximum average cost
  over the next 10 years of using an intermediate-class Atlas V at approximately
  $300 million per mission.

  We performed a detailed analysis of LSP’s PPBE using the maximum net obligation
  authority from May 26, 2009, for two missions: SMAP and ICESat-II. These missions
  were identified by SMD as two missions that were possible candidates for a
  Minotaur IV. 31 To project the price of what an Atlas V would cost for SMAP ordered in
  2012, we used an annual escalation of 6 percent (inflation) that projected the average at
  $206 million.

  However, we noticed that the PPBE estimates did not include Atlas V launch pad
  infrastructure costs. Because the Air Force charged NASA a user fee to cover
  infrastructure costs for Delta II launches, we believe that the Air Force may charge a
  similar user fee for Atlas V. Based on the ULA’s not-to-exceed NLS II prices, the
  Atlas V pad infrastructure costs for the SMAP mission could reach $128 million, for a
  total cost of $334 million for the SMAP mission using Atlas V.

  The following cost comparison chart also illustrates the cost trend for SMAP (ordered in
  2012 and expected to launch in 2014), ICESat-II (ordered in 2013 and expected to launch


  31
       Following the issuance of the draft of this report, SMD officials stated that ICESat-II now exceeds the
       capability of Minotaur IV.



REPORT NO. IG-11-012                                                                                             21
                                                                                                                 APPENDIX B



     in 2015), and other (2014–2020) medium-class missions without Atlas V pad
     infrastructure costs.

       Cost of Using Minotaur IV, ATLAS V, and Falcon 9

      $350
                                                                                                              $329
                           Minotaur IV          Falcon 9           Atlas V                         $310
                                                                                          $293
      $300
                                                                               $276
                                                                    $261
                                                           $246
      $250                                      $232
                                       $219
                            $206
                   $195
      $200
                                                                                                        $176
                                                                                             $166
                                                                                    $157
                                                                  $140   $148
      $150                                             $132
                                   $117       $124
                          $111
             $104
      $100                                                                                              $79
                                                                         $66        $70      $74
                                          $56        $59      $63
             $47     $50         $53
       $50


        $0
              2011        2012     2013       2014     2015       2016       2017     2018       2019     2020




Meeting Launch Requirements for Medium-Class Missions

     Based on our review of launch services costs related to the LADEE mission scheduled for
     launch in May 2013, and considering inflation, we believe that launch services costs for
     SMAP on a Minotaur IV will be approximately $50 million per launch as opposed to the
     $111 million for a Falcon 9 and $206 million projected for an Atlas V. If NASA
     determines that a Minotaur IV meets technical, risk, and schedule requirements for the
     medium-class missions included in the NLS II Projected Mission Model, NASA could
     avoid spending between $61 million and $156 million per launch, depending on the
     launch vehicle.

     In December 2008, SMD, in collaboration with SOMD, recommended the Minotaur V
     launch vehicle for the LADEE mission. Through discussion with SMD officials, we
     estimated costs for LADEE at approximately $46 million, which is comparable to costs
     for launch services provided by LSP under the NLS contract. Services encompassed
     basic launch services, mission-unique services, integrated services (e.g., launch vehicle




22                                                                                                 REPORT NO. IG-11-012
APPENDIX B



  and payload processing, range safety, engineering and institutional support, and launch
  pad support), and telemetry.

  We based our cost estimate of using a Minotaur IV for future launch services on
  LADEE’s mission cost of $46 million. We applied an annual escalation of 6 percent
  (inflation) to estimate that the average cost of using a Minotaur over the next 10 years
  would be approximately $63 million per launch.

  Although new medium-class ELVs (Falcon 9 and Taurus II) are in development, LSP
  officials anticipate the earliest one could complete certification is April 2014. An April
  2014 certification date may be too late for the SMAP mission, scheduled for November
  2014. In addition, LSP and SMD officials stated that the competitive award of a launch
  vehicle for a mission should occur 30 months before the mission’s scheduled launch date.
  This report recommends that LSP and SMD consider using a Minotaur IV for the SMAP
  mission, which is planned for launch in November 2014, as well as the other medium-
  class missions identified by SMD. If NASA determines that a Minotaur IV can satisfy
  the mission, technical, risk, and schedule requirements of these medium-class missions,
  and an affordable U.S. commercial medium-class launch vehicle is not available
  approximately 30 months before the missions’ planned launch dates, the potential
  monetary benefits could range from $78 million to $200 million per launch.




REPORT NO. IG-11-012                                                                           23
                         APPENDIX C




     STRATEGY FOR SMALL- AND
       MEDIUM-CLASS LAUNCH
                    SERVICES




24              REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   25
              APPENDIX C




26   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   27
              APPENDIX C




28   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   29
              APPENDIX C




30   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   31
              APPENDIX C




32   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   33
              APPENDIX C




34   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   35
              APPENDIX C




36   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   37
              APPENDIX C




38   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   39
              APPENDIX C




40   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   41
              APPENDIX C




42   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   43
              APPENDIX C




44   REPORT NO. IG-11-012
APPENDIX C




REPORT NO. IG-11-012   45
              APPENDIX C




46   REPORT NO. IG-11-012
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-11-012                         47
              APPENDIX D




48   REPORT NO. IG-11-012
APPENDIX E




                                                      REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Associate Administrator for Exploration Systems
  Associate Administrator for Science
     Deputy Associate Administrator for Programs
  Associate Administrator for Space Operations
     Assistant Associate Administrator for Launch Services
  Director, Kennedy Space Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Organization, Efficiency, and Financial Management
  House Committee on Science, Space, and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-11-012                                                                 49
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Larry Chisley, Project Manager
   Arnold Pettis, Data Mining Specialist/Statistician
   Wayne Emberton, Auditor
   Michael Brant, Auditor
   Earl Baker, Legal Support




REPORT NO. IG-11-012                                                         51
                                                                                  FEBRUARY 17, 2011
                                                                       REPORT No. IG-11-012




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
